HHS/OIG, Audit -"Review of the Medicaid Drug Rebate Program, State of Minnesota, Minnesota Department of Human Services, St. Paul, Minnesota,"(A-05-03-00045)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Medicaid Drug Rebate Program, State of Minnesota, Minnesota
Department of Human Services, St. Paul, Minnesota," (A-05-03-00045)
July 7, 2003
Complete
Text of Report is available in PDF format (107 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The
objective of this audit was to evaluate whether the Minnesota Department of Human
Services had established adequate accountability and internal controls over the
Medicaid drug rebate program.  In our opinion, the State had established
adequate accountability and internal controls.  The financial management
system used to provide the necessary information complies with Federal regulations.